OFFICE OF INSPECTOR GENERAL





AUDIT OF USAID/EGYPT’S
MICROFINANCE ACTIVITIES


AUDIT REPORT NO. 6-263-08-004-P 

MAY 27, 2008 





CAIRO, EGYPT 

Office of Inspector General

May 27, 2008

MEMORANDUM

TO:    	       USAID/Egypt Director, Hilda Arellano

FROM: 	        Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:	      Audit of USAID/Egypt’s Microfinance Activities
               (Report No. 6-263-08-004-P)

This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and incorporated them where appropriate. They are
included in their entirety as appendix II.

This report includes 10 recommendations to USAID/Egypt: (1) to develop procedures
for future agreements to ensure that the mission receives written commitments from
microfinance institutions to attain full financial sustainability within 7 years before an
agreement is signed, (2) to receive written commitments to attain full financial
sustainability within 7 years from existing microfinance institutions with signed
agreements, (3) to require all microfinance institutions to develop business plans that
incorporate performance targets, (4) to approve an implementation plan which identifies
activities with clear baselines and targets to assess progress, (5) to approve
performance indicators for technical assistance that align with established performance
indicators in the USAID/Egypt’s performance management plan, (6) to require the
implementer to report on approved performance indicators in its quarterly progress
reports, (7) to develop a written action plan for oversight by the cognizant technical
officer including documented site visits to assess progress against targets and the
completion of tasks stipulated in awards or annual plans, (8) to establish and document
specific procedures, including data entry and verification, to ensure the accuracy of
microfinance information reported to Congress, (9) to assess the technical assistance for
microfinance institutions to determine if the unique needs of each microfinance
institutions are being met and revise the unique assistance for each microfinance
institution accordingly, and (10) to establish a branding strategy for microfinance
institutions as defined in ADS 320.6.

As a result of missions actions to implement each of the recommendations,
management decisions and final actions have been completed for recommendations
nos. 1, 2, 3, 4, 5, 6, 7, 8, 9. Determination for final action for recommendation no. 10 will
be made by the Audit Performance and Compliance Division (M/CFO/APC) upon
completion of the actions planned by the mission.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 5 


Did USAID/Egypt implement its microfinance activities efficiently? .................................. 5 


     The Mission Did Not Receive Financial Sustainability Commitments 

     From Microfinance Institutions .................................................................................... 8 


Did USAID/Egypt’s microfinance activities achieve planned results? ............................... 9 


     Microfinance Institutions Need Performance-Based Business Plans........................ 11 


     The Mission Has Not Monitored the Progress of Technical Assistance 

     to Microfinance Institutions........................................................................................ 11 


     Site Visits to Financial Institutions and Technical Assistance 

     Contractor Need Strengthening ................................................................................ 13 


     Microfinance Reports to Congress Were Inconsistent with 

     USAID/Egypt Financial Records ............................................................................... 14 


     Recipients Questioned Value of Technical Assistance ............................................. 16 


     Branding Strategy Is Needed .................................................................................... 17 


Evaluation of Management Comments ....................................................................... 18 


Appendix I—Scope and Methodology......................................................................... 20 


Appendix II—Management Comments........................................................................ 23 

SUMMARY OF RESULTS 

In calendar year 2006, USAID/Egypt’s microfinance project was the second-largest
USAID microfinance loan provider worldwide. USAID/Egypt is the largest financier of
microfinance initiatives in Egypt, supporting an estimated 70 percent of all Egyptian
microfinance activity. Since 1997, USAID/Egypt has provided microfinance assistance
at a cost of $86.6 million. USAID/Egypt implemented its microfinance project through
seven not-for-profit microfinance institutions operating in different regions of the country,
two banks, and one private organization, the Credit Guarantee Company to assist in the
delivery of credit to small businesses that lack sufficient collateral to obtain loans. This
audit reviewed the loan portfolio and operations of three microfinance institutions—
Alexandria Business Association, Assiut Businessmen Association, and the Lead
Foundation—each with a current cooperative agreement supported by USAID/Egypt. In
addition, the audit reviewed the operations of the private Credit Guarantee Company.
The reviewed institutions had 212,144 active clients (35 percent) of the 614,899 active
clients served by all of the USAID-supported institutions (see page 3).

As part of a worldwide audit, the Regional Inspector General/Cairo (RIG/Cairo)
performed this audit to answer the following questions (see page 4):

   •   Did USAID/Egypt implement its microfinance activities efficiently?
   •   Did USAID/Egypt’s microfinance activities achieve planned results?

Regarding the efficiency of activities, for calendar year 2006, USAID/Egypt did not
implement its microfinance program efficiently, having met 7 of 18 international
benchmarks for the three microfinance institutions reviewed. Over 2005 and 2006 for
the three microfinance institutions reviewed, USAID/Egypt has increasingly managed its
microfinance activities efficiently, as shown by indicators measuring financial efficiency,
portfolio quality, and staff productivity (see page 5). However, the audit found that the
USAID/Egypt Mission did not receive financial sustainability commitments before
agreements were signed with the microfinance institutions (see page 8).

Regarding results, USAID/Egypt microfinance activities achieved planned results for
fiscal years 2005 and 2006 (see page 9). Furthermore, a statistically projectable
sample, at the 95 percent confidence level, tested supporting documentation and
purposes of each loan with the borrowers themselves, including data on loan amounts, loan
types, loan terms, funding sources, fees, and program awareness. The audit team found
one exception: one of the microfinance institutions was not acknowledging the source of
funds from the American people (see page 17). Based on USAID/Egypt’s reported results
and the statistical survey of sampled microfinance borrowers, RIG/Cairo determined that
the microfinance project was making a positive impact for its beneficiaries (see page 10).

However, not all the results were positive. For example, a cooperative agreement with
the Credit Guarantee Company resulted in 17 new branches providing credit instead of
the 30 planned in the agreement. Given that this agreement has ended, this audit does
not make a recommendation. However, the audit identified several issues that, if
addressed, could improve USAID/Egypt’s management of its microfinance project (see
page 10):



                                                                                           1
•	 Microfinance institutions need performance-based business plans.
•	 The mission has not monitored the progress of technical assistance to microfinance
   institutions.
•	 Site visits to financial institutions and technical assistance contractor need
   strengthening.
•	 Microfinance reports to Congress were inconsistent with USAID/Egypt financial
   records.
•	 Recipients questioned the value of technical assistance.
•	 Branding strategy is needed.

USAID/Egypt agreed with all the report recommendations and outlined its actions to
implement each recommendation (see pages 23 to 31).




                                                                                   2
BACKGROUND 

In calendar year 2006, USAID/Egypt’s microfinance project was the second-largest
USAID microfinance loan provider worldwide. USAID/Egypt has funded its current $86.6
million microfinance1 project since 1997. The purpose of the project is to increase
employment and income for Egypt’s low-income entrepreneurs, particularly women
heads of household. USAID/Egypt is the major financier of microfinance initiatives in
Egypt, supporting an estimated 70 percent of all Egyptian microfinance activity.
Microfinance activities in Egypt focus on providing loans to the economically active poor.
To illustrate, this audit report contains photographs of five recipients who received loans
for their small business in making shoes, selling textiles, raising chickens and ducks,
manufacturing boxes, and running a barbershop. USAID/Egypt implemented its
microfinance project through seven not-for-profit microfinance institutions operating in
different regions of the country, two banks, and the private Credit Guarantee Company
to assist in the delivery of credit to small businesses that lack sufficient collateral to
obtain loans.

These USAID-supported institutions (the seven microfinance institutions, two banks, and
the private Credit Guarantee Company) issued 1,024,051 loans valued at $145 million
during calendar year 2006. In addition, they have an outstanding loan portfolio of $25
million. The portfolio serves approximately 593,000 active borrowers, with a default rate
of less than 3 percent. Women’s participation has been consistently above 64 percent,
and most of these women are heads of households in Egypt’s economically
disadvantaged areas.

This audit reviewed the loan portfolio and operations of the three microfinance
institutions—Alexandria Business Association, Assiut Businessmen Association, and the
Lead Foundation—each having a current cooperative agreement supported by
USAID/Egypt. The cooperative agreements for the Alexandria Business Association
($9.3 million) and the Lead Foundation ($17.2 million) covered start-up costs, training,
and graduation amounts.       The cooperative agreement for Assiut Businessmen
Association ($1.0 million) covered only start-up costs and training. The graduation
amounts for the Assiut Businessmen Association were covered by the cooperative
agreement between USAID/Egypt and the Credit Guarantee Company.

This audit also reviewed the operations of the technical assistance contractor
Chemonics International and the private Credit Guarantee Company. In January 2006,
USAID/Egypt entered into a $5.4 million contract with Chemonics International to provide
technical assistance for microfinance institutions funded by USAID/Egypt. In March
2003, USAID/Egypt awarded a cooperative agreement for $27.5 million to the Credit
Guarantee Company to provide support for microenterprise and small and medium-sized
enterprise development activities. This award ended in September 2007. The reviewed
institutions had 212,144 active clients (35 percent) of the 614,899 active clients served
by all of the USAID-supported institutions.

1
  Microfinance is a part of microenterprise development. Microenterprises are small, informally
organized commercial operations owned and operated mostly by the poor. They constitute the
majority of businesses in many countries, account for a substantial share of total employment and
gross domestic product, and contribute significantly to the alleviation of poverty.


                                                                                               3
AUDIT OBJECTIVES
This audit was conducted at USAID/Egypt as part of a worldwide audit of USAID’s
microfinance activities included in the Office of Inspector’s General’s fiscal year 2007
annual audit plan. The audit was conducted to answer the following questions:

•   Did USAID/Egypt implement its microfinance activities efficiently?

•   Did USAID/Egypt microfinance activities achieve planned results?

Appendix I contains a discussion of the audit’s scope and methodology.


               Locations in Egypt of Microfinance Activities Reviewed




                                                                          The Lead
                                                                         Foundation
              Alexandria
               Business
              Association



                                                                            Assiut
                                                                         Businessmen
                                                                          Association




                                                                                        4
AUDIT FINDINGS 

Did USAID/Egypt                  implement           its     microfinance            activities
efficiently?
For calendar year 2006, USAID/Egypt did not implement its microfinance program
efficiently, having met 7 of 18 international benchmarks for the three microfinance
institutions reviewed. From calendar year 2005 to calendar year 2006, USAID/Egypt’s
microfinance program did show improvements in efficiency. This audit’s determination
was based on a comparison of results for six indicators,2 with benchmarks for 2006
established by the Microfinance Information eXchange Market—a global, Web-based
microfinance information platform that USAID/Egypt uses to measure the efficiency and
performance of its microfinance institutions.

With regard to financial efficiency for both calendar years, all three microfinance
institutions exceeded benchmark standards for the indicator “cost per active client” but
did not meet the benchmark for “operating expense ratio.” Even so, the operating
expense ratio for each of the three institutions showed an improvement from 2005 to
2006. For the other four indicators for portfolio quality and staff productivity, in 9 of 12
cases the indicator benchmarks either did not change or improved from 2005 to 2006.
Tables 1, 2, and 3 provide the results of the efficiency measures for the three
microfinance institutions:   Alexandria Business Association, Assiut Businessmen
Association, and the Lead Foundation.

Table 1 shows that the Alexandria Business Association improved its operating expense
ratio (which measures personnel and administrative expenses relative to the loan
portfolio) from 18.5 percent in 2005 to 16.7 percent in 2006. The cost per client also
slightly improved from 2005 to 2006. Other indicators also showed improvement.




2
   The definitions for the six indicators were developed under USAID’s Accelerated
Microenterprise Advancement Project—“Measuring Performance of Microfinance Institutions: A
Framework for Reporting, Analysis, and Monitoring.”
•	 “Operating expense ratio” is measured by dividing operating expenses by the average gross
    loan portfolio of the institution.
•	 “Cost per active client” is measured by dividing operating expenses by the number of active
    borrowers.
•	 “Write-off ratio” is measured by dividing the value of loan written off by the average gross
    loan portfolio.
•	 “Portfolio at risk > 30 days” is measured by dividing portfolio outstanding over 30 days late by
    the gross loan portfolio.
•	 “Borrowers per loan officer” is measured by dividing the number of active borrowers by the
    number of loan officers.
•	 “Borrowers per staff member” is measured by dividing the number of borrowers by the
    number of personnel.


                                                                                                 5
Table 1: Alexandria Business Association—Indicators Measuring the Efficiency of 

            Microfinance Activities for Calendar Years 2005 and 2006 


                                                              2006        Benchmark
            Indicators              2005        2006       Benchmark         Met
      Financial Efficiency
Operating expense ratio              18.5%       16.7%           14.9%             No
Cost per active client                 $40         $38             $61            Yes
        Portfolio Quality
Write-off ratio                        1.1%       1.1%            0.5%             No
Portfolio at risk > 30 days            2.4%       1.8%            0.5%             No
        Staff Productivity
Borrowers per loan officer              112         133             289            No
Borrowers per staff member               66          78             185            No

Table 2 shows that the Assiut Businessmen Association improved its operating expense
ratio from 27.9 percent in 2005 to 25.3 percent in 2006. Another improvement was the
cost per client, which was significantly less than benchmarks for both 2005 and 2006.
The other indicators showed both positive and negative changes.

Table 2: Assiut Businessmen Association—Indicators Measuring the Efficiency of
            Microfinance Activities for Calendar Years 2005 and 2006

                                                             2006         Benchmark
            Indicators              2005        2006      Benchmark          Met
      Financial Efficiency
Operating expense ratio              27.9%       25.3%           14.9%            No
Cost per active client                 $14         $18             $61           Yes
        Portfolio Quality
Write-off ratio                       3.0%        5.2%            0.5%            No
Portfolio at risk > 30 days          12.9%        3.8%            0.5%            No
        Staff Productivity
Borrowers per loan officer               49         54             289            No
Borrowers per staff member              174        118             185            No

Table 3 shows that the Lead Foundation improved its operating expense ratio from 41.6
percent in 2005 to 35.1 percent in 2006. The other indicators showed both positive and
negative changes.




                                                                                    6
      Table 3: The Lead Foundation—Indicators Measuring the Efficiency of 

             Microfinance Activities for Calendar Years 2005 and 2006 


                                                               2006         Benchmark
            Indicators               2005         2006      Benchmark          Met
      Financial Efficiency
Operating expense ratio                41.6%       35.1%           23.5%             No
Cost per active client                   $24         $24            $155            Yes
        Portfolio Quality
Write-off ratio                         0.0%        0.0%            0.4%            Yes
Portfolio at risk > 30 days             0.0%        0.1%            2.9%            Yes
        Staff Productivity
Borrowers per loan officer               246         263              167           Yes
Borrowers per staff member               123         152              105           Yes

Although USAID/Egypt increasingly improved the efficiency of its microfinance activities,
the mission had not received financial sustainability commitments from microfinance
institutions as required by USAID regulations. Microfinance institutions that are not
required to prepare this commitment letter may not be aware that they need to operate
efficiently to ensure their long-term sustainability. This concern is discussed below.




                                            OIG photograph of Assiut Businessmen
                                            Association borrower who received a
                                            loan of $175 to expand his shoemaking
                                            store in Fayoum, Egypt.




                                                                                       7
The Mission Did Not Receive Financial Sustainability
Commitments From Microfinance Institutions
According to Automated Directives System (ADS) 219.3.5.2, before a mission signs an
agreement to provide assistance to any microfinance institution, the management of the
institution must provide the mission with a “credible written commitment” to attain full
financial sustainability on that institution’s financial service activities within 7 years of the
initial provision of USAID assistance.

USAID/Egypt has not received these required written commitments from any of its seven
microfinance institutions. According to mission officials, they did not understand that the
ADS required commitments letters apart from and before the cooperative agreements
were signed by microfinance institutions.

The three microfinance institutions reviewed all had USAID/Egypt cooperative
agreements that included language upholding the general goal of financial sustainability.
However, none of the cooperative agreements adhered to the rigid requirements of ADS
219.3.5.2, which specify prior written commitments that sustainability be achieved within
7 years of the initial provision of USAID assistance. Without these written commitments,
USAID/Egypt and existing microfinance institutions with ongoing agreements may not
understand that full financial sustainability is to be achieved within 7 years. Further, with
regard to future agreements, without being required to prepare this commitment letter,
microfinance institutions may not be aware that they need to operate efficiently to ensure
long-term sustainability. Noncompliance with this USAID policy also increases the risk
that unqualified microfinance institutions could receive assistance. Thus, this audit
makes the following recommendations to strengthen the sustainability of USAID/Egypt’s
microfinance program.

    Recommendation No. 1: We recommend that USAID/Egypt develop procedures
    for future agreements to ensure that the mission receives written commitments
    from microfinance institutions to attain full financial sustainability within 7 years
    before an agreement is signed.

    Recommendation No. 2: We recommend that USAID/Egypt receive written
    commitments to attain full financial sustainability within 7 years from existing
    microfinance institutions with signed agreements.




                                                        OIG photograph of an Alexandria
                                                        Business Association borrower who
                                                        received a loan of $140 to expand
                                                        her business selling textile products
                                                        in Alexandria, Egypt.



                                                                                               8
 Did USAID/Egypt’s microfinance activities achieve planned
 results?
 USAID/Egypt achieved its overall planned results for its microfinance program in fiscal
 year 2005 and fiscal year 2006. One major exception was a $27.5 million cooperative
 agreement that resulted in expanding only 17 of 30 planned new branches for
 microfinance institutions to provide microfinance credit. This audit’s determination of
 overall planned results was based on planned and reported results within the mission’s
 performance management plan covering the seven microfinance institutions, as table 4
 shows.

  Table 4: USAID/Egypt Microfinance Activities—Planned Versus Reported Results
                           Fiscal Years 2005 and 2006


                            Fiscal Year 2005                         Fiscal Year 2006

Performance                                     Percent                                  Percent
  Indicator       Planned       Reported       Achieved    Planned       Reported       Achieved
Value of small
  and micro
  enterprise
    loans
  disbursed      $132 million   $193 million    146%      $140 million   $246 million    176%
   Annual
  number of
 loans at the
 poverty level
(under $350)      400,000        639,052        160%       450,000        789,052        175%

 Mission officials said that the number of poverty loans greatly surpassed their
 expectations because they entered into a new cooperative agreement and because
 several other microfinance institutions kept expanding their operations. As a result, the
 scale of lending was much greater for group and poverty lending programs during fiscal
 years 2005 and 2006 than the mission had anticipated.

 Based on the results achieved during 2006, activity managers for the mission’s
 microfinance activities adjusted their planned targets for 2007. For example, they
 increased the planned number of poverty loans from 450,000 to 870,000 and the
 planned amount of loans disbursed from $140 million to $281 million to reflect
 USAID/Egypt’s planned future program expansion.

 In addition, to determine the accuracy and validity of data from the three microfinance
 institutions that had ongoing agreements with USAID/Egypt, the audit team selected and
 performed a statistically projectable sample at the 95 percent confidence level. The
 resulting sample consisted of 84 beneficiaries from a universe of 212,144 active loans as of
 December 31, 2006. The audit sample validation consisted of testing supporting
 documentation and purposes of each loan with the borrowers themselves, including data
 such as loan amounts, loan types, loan terms, funding sources, fees, and program
 awareness. The audit team found one exception. One of the microfinance institutions was
 not acknowledging the source of funds from the American people.                  Based on


                                                                                             9
USAID/Egypt’s reported results and the statistical survey of sampled microfinance
borrowers, this audit determined that the microfinance project was making a positive impact
for beneficiaries.

However, some results were not positive. For example, in March 2003, USAID/Egypt
awarded a cooperative agreement for $27.5 million to the Credit Guarantee Company to
provide support for microenterprise and small and medium-sized enterprise development
activities. According to the agreement, within 3 years, the Credit Guarantee Company
was tasked to open 30 new branches for microfinance institutions to provide
microfinance credit. However, as of July 2007, only 17 new branches, or 56 percent of
the agreement planned results, were providing credit. Given that this agreement has
ended, this audit does not make a recommendation on the matter.

In addition, as discussed in the following report sections, the audit identified the following
issues requiring USAID/Egypt management attention.

•	 Microfinance institutions need performance-based business plans.
•	 The mission has not monitored the progress of technical assistance to microfinance
   institutions.
•	 Site visits to financial institutions and technical assistance contractor need
   strengthening.
•	 Microfinance reports to Congress were inconsistent with USAID/Egypt financial
   records.
•	 Recipients questioned the value of technical assistance.
•	 Branding strategy is needed.




                                               OIG photograph of an Assiut Businessmen
                                               Association borrower who received a loan of
                                               $428 to expand her chicken and duck raising
                                               operation in Minia, Egypt.




                                                                                           10
Microfinance Institutions Need
Performance-Based Business Plans
The ADS requires microfinance institutions to use indicators for portfolio, outreach, and
interest rate policy (please see Mandatory Reference, Microenterprise Development,
Annex – Minimum Reporting for Microfinance Institutions, sections A and B).
Specifically, missions are responsible for monitoring and reporting on the performance of
microfinance institutions in terms of (1) the organization’s outreach to the poor and the
proportion of women among its clients and (2) the organization’s performance, including
its progress toward financial sustainability and operational efficiency.

None of the three microfinance institutions reviewed had a business plan3 to assess and
track performance information according to USAID policy.               An April 2006
USAID-contracted study revealed that even though the three microfinance institutions
prepared forecasts, detailed budgets, or expansion plans, this information could not be
considered business plans because it lacked performance targets or an overall strategy.

The agreements with each of the microfinance institutions did not require the reporting of
performance information such as targets and associated indicators. Officials from both
USAID/Egypt and the management of the three microfinance institutions did not perceive
the need for performance targets within a business plan that goes beyond institutional
financial information. A business plan that incorporates performance targets would
provide managers of microfinance institutions with an important tool to monitor the
institution’s progress and compare it with the targets, and would also allow USAID
managers to effectively monitor the progress of microfinance institutions. Without this
information, USAID/Egypt’s management decisions would not be based on established
performance-based business plans.

    Recommendation No. 3:          We recommend that USAID/Egypt require all
    microfinance institutions to develop business plans that incorporate performance
    targets.

The Mission Has Not Monitored the Progress of
Technical Assistance to Microfinance Institutions
Summary: USAID policy requires performance management to monitor and assess
progress. However, USAID/Egypt has not monitored the progress of its technical
assistance to microfinance institutions. For example, the mission has not approved an
implementation plan with associated indicators for its technical assistance contractor
because the plans did not meet USAID requirements. In addition, indicators within the
implementation plan did not align with performance indicators in USAID/Egypt’s
performance management plan and quarterly progress reports did not report progress
against approved indicators. The contractor has started to report more useful
performance information, but this information still did not align with the unapproved
implementation plan. Consequently, the mission does not have an objective basis to
assess progress of technical assistance provided by a contractor to the microfinance
institutions.

3
  Given that these microfinance institutions are nongovernmental organizations, this report refers
to their performance-based plans as business plans.


                                                                                               11
ADS 203.3.2 states that missions are responsible for establishing systems to measure
progress toward their intended objectives. In addition, ADS 200.6 defines performance
management as “the systematic process of monitoring the results of activities; collecting
and analyzing performance information to track progress toward planned results; using
performance information to influence program decisionmaking and resource allocation;
and communicating results achieved, or not attained, to advance organizational learning
and tell the Agency’s story.”

In January 2006, USAID/Egypt entered into a contract with Chemonics International to
provide technical assistance for microfinance institutions funded by USAID. This
contract required an implementation plan within 2 months after the start of the contract
as well as quarterly progress reports. Although Chemonics has developed three
implementation plans, USAID/Egypt has not officially approved any of these plans.
Chemonics prepared its first implementation plan in March 2005 for the first 5 months of
activity. Chemonics prepared its second implementation plan in May 2006. Chemonics
prepared its third implementation plan, the most comprehensive of the plans to that date,
in April 2007. According to mission officials, they had not approved and were not using
these implementation plans because the plans did not meet USAID requirements. For
example, the April 2007 plan did not include baselines or targets to determine progress
and compare actual and planned results.

The plans had two other faults. First, the objectives of the implementation plans did not
align with USAID/Egypt performance indicators to report progress for its microfinance
project in its performance management plan. To illustrate, in its third implementation
plan, Chemonics started to report results using performance indicators from
USAID/Egypt’s performance management plan. However, these reported results did not
align with the still unapproved implementation plan. Second, the mission did not require
Chemonics to include performance data that measured actual results against expected
results in its quarterly progress reports during the first year of the contract.

As evidenced by lack of approval of the technical assistance implementation plan,
mission staff members were not using the implementation plans and associated
progress reports as a tool to assess progress. The mission had not taken steps to
incorporate indicators in performance monitoring of technical assistance provided to
microfinance institutions. Consequently, the mission could not be assured that progress
for technical assistance to microfinance institutions was meeting expectations. As a
result, the audit team is making the following recommendations.

   Recommendation No. 4: We recommend that USAID/Egypt approve an
   implementation plan which identifies activities with clear baselines and targets to
   assess progress.

   Recommendation No. 5:          We recommend that USAID/Egypt approve
   performance indicators for technical assistance that align with established
   performance indicators in the USAID/Egypt’s performance management plan.

   Recommendation No. 6:     We recommend that USAID/Egypt require the
   implementer to report on approved performance indicators in its quarterly
   progress reports.




                                                                                         12
                                                   OIG photograph of an Assiut Businessmen
                                                   Association borrower who received a loan
                                                   of $263 to expand his manufacturing of
                                                   boxes for fruits and vegetables in Fayoum,
                                                   Egypt.


Site Visits to Financial Institutions and
Technical Assistance Contractor Need Strengthening
Summary: USAID policy states that the cognizant technical officer is responsible for
ensuring that USAID exercises prudent management of assistance awards and for
monitoring and evaluating the recipient and its performance. USAID’s Guidebook for
Managers and Cognizant Technical Officers on Acquisition and Assistance states that
the cognizant technical officer should document all significant actions. Over 2½ years,
the cognizant technical officer documented 17 site visits to microfinance institutions but
none to the technical assistance contractor. Nor did the cognizant technical officer
follow up with implementing partners to address performance targets that were either not
established or not met. Mission staff cited workload requirements as hindering the ability
of the cognizant technical officer to fulfill oversight responsibilities. Without adequate
oversight, mission management may not have timely information on performance to
measure progress and influence program decisionmaking and resource allocation.

ADS 303.2 (f) states that the cognizant technical officer is responsible for ensuring that
USAID exercises prudent management of assistance awards and for making the
achievement of program objectives easier by monitoring and evaluating the recipient and
its performance. USAID’s Guidebook for Managers and Cognizant Technical Officers on
Acquisition and Assistance states that the cognizant technical officer should document
all significant actions including any technical directions given to the contractor in the
work file or a separate action file. The Guidebook also notes that site visits are a key
element in the cognizant technical officer’s ability to monitor and verify progress and
compliance with the contract. ADS 303.3.17.b states that site visits are an important
part of effective award management.

During calendar years 2005, 2006, and 2007, the cognizant technical officer
documented 17 site visits. The cognizant technical officer documented seven site visits
in calendar year 2005, six in calendar year 2006, and four during the first 4 months of
calendar year 2007. All of these site visits were to microfinance institutions; no site visits
to the technical assistance contractor were documented. Furthermore, the cognizant
technical officer did not document followup with the implementing partners to address
performance targets that were not established or were not met or tasks that were not
completed as stipulated in agreements.

According to the cognizant technical officer, the oversight role covers all seven
microfinance institutions and the technical assistance contractor—all with distinct


                                                                                           13
agreements. As a result, the heavy workload has limited documentation of site visits
and related oversight responsibilities. However, without adequate oversight, mission
management may not have timely information on program performance to measure
progress and influence program decisionmaking and resource allocation. Therefore, this
audit makes the following recommendation.

   Recommendation No. 7: We recommend that USAID/Egypt develop a written
   action plan for oversight by the cognizant technical officer, including documented
   site visits to assess progress against targets and the completion of tasks
   stipulated in awards or annual plans.




                                       OIG photograph of an Alexandria
                                       Business Association borrower who
                                       received a loan for $243 to expand a
                                       barbershop in Alexandria, Egypt.


Microfinance Reports to Congress Were
Inconsistent With USAID/Egypt Financial Records
Summary: According to USAID guidance, performance data should be accurate and
reliable. However, the fiscal year 2006 Microenterprise Results Reports to Congress
contained information that was inconsistent with USAID/Egypt financial records.
USAID/Washington relied on USAID/Egypt to ensure the accuracy of entered data. In
turn, USAID/Egypt relied on the implementer to ensure the accuracy of entered data. As
affirmed in the Microenterprise Results and Accountability Act of 2004, without data
quality control and data verification, decision makers may draw erroneous conclusions
regarding the performance of the program, leading to improper management decisions.

ADS 203.3.5.2 states that the operating units should be aware of the strengths and
weaknesses of data and the extent to which data integrity can be trusted to influence
management decisions.

In annex A of its fiscal year 2006 annual report entitled Microenterprise Results
Reporting, USAID reported data to Congress that were inconsistent with data recorded
by USAID/Egypt. As table 5 shows, USAID reported fiscal year 2006 funding (in
obligations) for two institutions. However, for one of the two institutions, the amount
differed from USAID/Egypt financial records by 34 percent.


                                                                                        14
    Table 5: Fiscal Year 2006 Funding Reported to Congress for Two Institutions 

                    Compared to USAID/Egypt Financial Records 



                             Reported to          USAID/Egypt                     Percent
       Institution            Congress         Financial Records    Difference    Different

Chemonics International         $5,352,000            $3,538,150 $1,813,850          33.9%

The Lead Foundation             $9,811,000            $9,811,776          $776        0.0%

 In addition to the actual fiscal year 2006 report to Congress, the database supporting
 Microenterprise Results Reporting to Congress contained several apparent errors for
 two of the three microfinance institutions, table 6 shows.

  Table 6: Fiscal Year 2006 Program Data in the Microenterprise Results Reporting
            (MRR) Database Compared to USAID/Egypt Program Records

                                                               Number of      Amount For
                                   Number        Amount of      Poverty        Poverty
 Institution   Data Source         of Loans       Loans          Loans          Loans
Alexandria Business Association
             MRR Database             59,526 $15,084,649            46,802       $5,214,741
             Mission Records          59,526 $15,117,729            33,431       $1,695,406
             Percent Difference   0.0%        0.2%                  28.6%            67.5%
Assiut Businessmen Association
             MRR Database       164,533 $19,394,015                151,712    $12,224,935
             Mission Records    164,533 $19,394,015                151,080    $11,829,550
             Percent Difference   0.0%        0.0%                   0.4%           3.2%
The Lead Foundation
              MRR Database            57,143      4,556,521         52,904        2,827,461
              Mission Records         57,143      4,582,606         52,904        2,843,583
              Percent Difference        0.0%          0.57%           0.0%           0.57%

 The USAID Bureau for Economic Growth, Agriculture, and Trade in Washington, DC, did
 not specifically request USAID/Egypt to validate the quality and accuracy of the reported
 information. However, according to a bureau program manager, the mission is
 responsible for entering and verifying the data in the microenterprise results reporting
 system. The bureau does not validate the accuracy of the information by any other
 means. USAID/Egypt officials stated that they relied on the implementer to validate the
 data. Without data quality control and data verification, decision makers may draw
 erroneous conclusions regarding the performance of the program, leading to improper
 management decisions and the reporting of incorrect information. Furthermore, the
 Microenterprise Results and Accountability Act of 2004 affirmed the importance of
 database accuracy by stating that the monitoring system provides a basis for
 recommending adjustments to enhance the sustainability and the impact of the



                                                                                       15
assistance for the very poor, particularly for poor women. To ensure the reliability of the
reported information, this audit makes the following recommendation.

   Recommendation No. 8: We recommend that USAID/Egypt establish and
   document specific procedures, including data entry and verification, to ensure the
   accuracy of microfinance information reported to Congress.

Recipients Questioned Value
of Technical Assistance
Summary: In January 2006, USAID/Egypt entered into a contract with Chemonics
International to provide technical assistance for microfinance institutions funded by
USAID. However, according to both a midterm evaluation of the project and interviews
with the heads of microfinance institutions, the value of technical assistance for
microfinance has been limited. For example, training was not relevant to Government of
Egypt laws and regulations, and training was not targeted to the needs of the
organization. As a result, the heads of microfinance institutions stated that they were not
fully using the technical assistance services. As noted earlier, the USAID/Egypt mission
had not monitored the progress of technical assistance to microfinance institutions. As a
result, the mission was not aware of the limited usefulness of technical assistance
provided to the microfinance institutions. Mission officials also confirm that they were
not aware of this issue. Underutilizing technical assistance lessens the ability of
USAID/Egypt’s microfinance project to expand outreach to underserved areas and
vulnerable populations, particularly women.

In January 2006, USAID/Egypt entered into a $5.4 million contract with Chemonics
International to provide technical assistance for microfinance institutions funded by
USAID. However, according to both a midterm evaluation of the project and interviews
with the heads of microfinance institutions, the value of technical assistance for
microfinance has been limited. The USAID microfinance project has been using the
same local contractor, Environmental Quality International, for technical assistance since
1993. In December 2004, USAID/Egypt received a midterm evaluation of the
microfinance project that highlighted the following:

•	 The quality of the local technical service provision is low and has not evolved with
   the needs of the microfinance institutions.
•	 Major providers of technical assistance are not aware of and do not apply
   established international best practices.
•	 Technical assistance is better suited for startup branches than for growing or
   established institutions.
•	 Future technical assistance should be based on microfinance institutions identifying
   their needs.

In addition, the heads of four microfinance institutions identified issues with the technical
assistance and questioned its value. For example, according to these management
officials, training was not relevant to Government of Egypt laws and regulations, and
training was not targeted to the needs of the organization. As a result, the same officials
stated that they were not fully using the technical assistance services. As noted earlier,
the lack of approved tools to assess progress by USAID/Egypt had hindered the mission
from monitoring the progress of technical assistance to microfinance institutions,



                                                                                          16
including approving implementation plans, approving performance indicators for
technical assistance, and requiring the implementer to report performance data in its
quarterly progress reports. Given these issues, the mission was not aware of the limited
usefulness of technical assistance provided to the microfinance institutions. Mission
officials also confirm that they were not aware of this issue. Underutilizing such
assistance lessens the ability of USAID/Egypt’s microfinance project to expand outreach
to underserved areas and vulnerable populations, particularly women. This audit makes
the following recommendation to address this issue.

   Recommendation No. 9: We recommend that USAID/Egypt assess its technical
   assistance for microfinance institutions to determine if the unique needs of each
   microfinance institution are being met and revise the unique assistance for each
   microfinance institution accordingly.

Branding Strategy Is Needed
According to ADS 320.3.3, “USAID’s policy is that programs, projects, activities, public
communication, or commodities implemented or delivered under co-funded instruments -
such as grants, cooperative agreements, or other assistance awards that usually
required a cost-share - generally are “co-branded and co-marked”.”

During site visits to program beneficiaries in Alexandria, survey results disclosed that 13
of 24 (54 percent) of the beneficiaries were not aware that USAID or the American
people have subsidized the establishment and operations of the institution. According to
the management of the microfinance institution, Alexandria Business Association, there
was no need for its beneficiaries to be aware of its source of funds, because if they
were, they would not repay the loans. In contrast, beneficiaries of the other two
microfinance institutions were generally aware of USAID’s assistance to the
microfinance institutions, as table 7 shows.

                   Table 7: Number of Beneficiaries Unaware That 

                   USAID Was the Source of Microfinance Funding 


                                                            Number of beneficiaries
                                                             who did not know that
                                         Beneficiary        USAID was the source of
       Microfinance Institution          Sample Size               funding
 Alexandria Business Association            24                        13
 Assiut Businessmen Association             36                         2
 The Lead Foundation                        24                         5
 Total                                      84                        20

Information should be available to let Egyptians know that these and all other
USAID-funded microfinance institutions and their lending programs for poor Egyptian
microentrepreneurs are substantially the result of the USAID/Egypt assistance at a cost
of $86.6 million since fiscal year 1997. As a result, this audit makes the following
recommendation.

   Recommendation No. 10: We recommend that USAID/Egypt establish a
   branding strategy for microfinance institutions as defined in ADS 320.6.


                                                                                        17
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Egypt agreed with all the report
recommendations and outlined its actions to implement each of the recommendations,
which will strengthen measures to better manage the USAID-funded activities.

Regarding recommendation no. 1, the mission cognizant technical officer has developed
procedures to receive written commitments from participating institutions to attain full
financial sustainability, separate from the signed agreements and before officially signing
new agreements.

Regarding recommendation no. 2, the mission outlined actions taken by the cognizant
technical officer to attain the written commitments to attain full sustainability from existing
microfinance with signed agreements.

Regarding recommendation no. 3, the mission required business plans from all
microfinance institutions. The mission expects to have all plans finalized by June 30,
2008. The three microfinance institutions reviewed already have finalized their business
plans.

Regarding recommendation no. 4, the mission approved a technical assistance
implementation plan for calendar year 2008. Specific targets and indicators are broken
down quarterly and reported within the technical assistance quarterly reports.

Regarding recommendation no. 5, the mission approved performance indicators for
technical assistance that are aligned with USAID/Egypt’s performance management
plan.

Regarding recommendation no. 6, the mission’s cognizant technical officer required the
technical assistance provider to report on approved indicators in its quarterly progress
reports. The performance indicators are tracked by the cognizant technical officer to
review progress against targets.

Regarding recommendation no. 7, the mission acknowledged the importance of
documenting site visits and outlined several measures, including (1) a performance
monitoring checklist that includes data to be tracked, frequency of collection, and data
quality assessments and (2) a plan for site visits that ensures complete coverage with
appropriate frequency. Since the beginning of fiscal year 2008, the mission has already
documented more than 80 site visits.

Regarding recommendation no. 8, the mission has taken steps to ensure the accuracy of
microfinance information reported to Congress, including (1) upgrades to the
microfinance institutions software system, (2) letters to each USAID-supported
microfinance institution that outline responsibilities, including Microenterprise Results
Reporting data, (3) clear instructions to the technical assistance provider to all the
USAID-supported microfinance institutions regarding reporting procedures, and



                                                                                            18
(4) verification by the technical assistance contractor management and approval by the
cognizant technical officer before reporting to the Microenterprise Results Reporting
database.

Regarding recommendation no. 9, the mission requested the technical assistance
contractor to conduct an assessment of the needs of the USAID-assisted microfinance
institutions. Based on this assessment, USAID has assigned specific tasks to the
technical assistance contractor under its work plan. The mission’s cognizant technical
officer is monitoring the performance of the technical assistance provider against the
planned results.

Regarding recommendation no. 10, the mission stated that the technical assistance
provider is assisting the Lead Foundation—the only ongoing agreement at the present
time—to establish a branding strategy. The mission intends to complete the branding
strategy by May 31, 2008. In addition, the cognizant technical officer instructed the
technical assistance provider to provide training sessions on branding directed to loan
coordinators who are in direct contact with the beneficiaries.

As a result of the mission’s actions to implement these recommendations, management
decisions and final actions have been completed for recommendation nos. 1, 2, 3, 4, 5,
6, 7, 8, and 9. Determination for final action for recommendation no. 10 will be made by
the Audit Performance and Compliance Division (M/CFO/APC) upon completion of the
actions planned by the mission. USAID/Egypt’s comments for the draft report are
included in their entirety in appendix II.




                                                                                     19
                                                                                APPENDIX I




SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted Government auditing standards. This audit was part of a worldwide audit of
USAID’s microfinance activities. The audit was designed to determine whether
(1) USAID/Egypt    implemented      its    microfinance   activities efficiently  and
(2) USAID/Egypt’s microfinance activities achieved planned results.

USAID/Egypt implemented its microfinance project through seven not-for-profit
microfinance institutions, two banks, and the private Credit Guarantee Company to
assist in the delivery of credit to small businesses that lack sufficient collateral to obtain
loans. This audit reviewed the loan portfolio and operations of the three microfinance
institutions—Alexandria Business Association, Assiut Businessmen Association, and the
Lead Foundation—each with a current cooperative agreement supported by
USAID/Egypt. In addition, we reviewed the operations of the private Credit Guarantee
Company. The reviewed institutions had 212,144 active clients (35 percent) out of the
614,899 active clients served by all of the USAID-supported institutions.

We conducted our audit from May 6 through December 17, 2007, at the principal offices
of USAID/Egypt, the technical contractor Chemonics International in Cairo, the
microfinance institution Alexandria Business Association in Alexandria, the microfinance
institution Assiut Businessmen Association in Assiut, the microfinance institution Lead
Foundation in Cairo, and the Credit Guarantee Company in Cairo. We also visited
suboffices of these organizations in Minia, Fayoum, and Beni Suef. In addition, we
conducted 84 site visits to microfinance recipients in Alexandria, Cairo, Minia, Fayoum,
and Beni Suef.

The audit scope included assessing significant management controls over the efficiency
of microfinance activities and the achievement of planned results. Such controls
included the following:

•	 The collection of financial sustainability commitments from microfinance institutions.
•	 The collection, verification, and reporting of data supporting results for financial
   efficiency, portfolio quality, and staff productivity.
•	 The collection, verification, and reporting of data supporting reported program results
   and financial data.
•	 The preparation of business plans for microfinance institutions.
•	 The review and approval of an implementation plan for the technical assistance
   contractor.
•	 Monitoring by the mission’s cognizant technical officer.
•	 The approval of key personnel, as required by cooperative agreements.
•	 Requirements for microfinance institutions to have closeout audits at the point of
   reaching full sustainability.

Audit evidence included cooperative agreements, regulations, mission performance
plans, quarterly progress reports by the technical assistance contractor, monthly



                                                                                           20
                                                                                APPENDIX I



progress reports by the institutions, financial statements for three microfinance
institutions, project files, field trip reports, USAID/Egypt financial records, implementation
plans of the technical assistance contractor, a midterm evaluation of the microfinance
project, an independent assessment of the microfinance institutions, data reported on
the Web-based tool Microfinance Information eXchange Market, as well as meetings and
interviews with management and staff from USAID, the technical assistance contractor,
the microfinance institutions, and the Credit Guarantee Company.

Two prior audits were relevant to this review4. However, none of the prior audit findings
for these two audits affected the areas under our review.

Methodology
To answer the audit objectives, we met with the implementing partner, microfinance
institution officials, and borrowers in Egypt, and USAID officials in Egypt and
Washington, DC. We interviewed the appropriate officials and reviewed relevant
documentation produced by USAID/Egypt such as award documents, including
cooperative agreements and amendments, mission correspondence, the mission
performance plan, financial reports, and field visit reports. We reviewed microfinance
institutions and implementing partner–prepared documentation such as annual work
plans and quarterly and monthly reports. In addition, we reviewed the operations of the
private Credit Guarantee Company and the contractor providing technical assistance to
the microfinance institutions.

We selected and reviewed three microfinance institutions that have current cooperative
agreements supported by USAID/Egypt.           Two institutions (Alexandria Business
Association and Assiut Businessmen Association) had large-scale outreach programs,
and one institution (The Lead Foundation) had a medium-scale outreach program. The
large-scale and medium-scale outreach programs have different international
benchmarks for operational and financial performance.

To answer the first audit objective, we selected six indicators for each of the three
selected microfinance institutions, looked for changes from calendar years 2005 to 2006,
and compared results to international benchmarks for 2006 established by the
Microfinance Information eXchange Market—a global, Web-based microfinance
information platform that is used by USAID/Egypt. To answer the second audit
objective, we compared missionwide reported results with planned results for fiscal
years 2005 and 2006 in the mission’s performance management plan. We could not
limit our review under the second audit objective to only the three microfinance
institutions because USAID/Egypt did not have data disaggregated by microfinance
institution. We also conducted site visits to observe operating activities and assess the
impact of the microfinance programs.

Specifically, to determine the accuracy and validity of data from the three microfinance
institutions that have ongoing agreements with USAID/Egypt, we selected and
performed a statistically projectable sample at the 95 percent confidence level with a 4

4
  The two prior audits were the USAID Inspector General “Audit of USAID/Egypt’s Small and
Microenterprise Development Activities” (Audit Report No. 6-263-03-002-P, March 12, 2003) and
the Government Accountability Office “Microenterprise Development: USAID’s Program Has Met
Some Goals; Annual Reporting Has Limitations” (GAO-04-171, November 2003).


                                                                                           21
                                                                          APPENDIX I


percent precision.     The resulting sample consisted of 84 beneficiaries (totaling
approximately $32,000 in loans) from a universe of 212,144 active loans totaling $28
million as of December 31, 2006. The audit sample validation consisted of testing
supporting documentation and purposes of each loan with the borrowers themselves,
including data such as loan amounts, loan types, loan terms, funding sources, fees, and
program awareness. We also interviewed 27 branch managers and 4 executive
managers. We found one exception. One of the microfinance institutions did not
acknowledge the source of funds from the American people. To assist with this testing,
USAID/Egypt contracted with an independent public accounting firm in Egypt to assist
our staff with the statistical survey. We developed the scope of work, managed the
work, and directly received the results from the accounting firm’s staff auditors.
USAID/Egypt paid the costs of the accounting firm’s services.




                                                                                    22
                                                                               APPENDIX II 




MANAGEMENT COMMENTS 



Memorandum
Date: 	        March 27, 2008

To:	           Lloyd Miller, Regional Inspector General/Cairo

From:	         Hilda Arellano, Mission Director /s/

Subject: 	     Audit of USAID/Egypt Microfinance activities
               Audit Report No. 6-263-08-00X-P February XX, 2008 – Draft report

Following is USAID/Egypt’s response to the RIG Microfinance activities program audit
report recommendations.

Recommendation No 1: We recommend that USAID/Egypt develop procedures to ensure
that the mission receives written commitments, to attain full financial sustainability
within seven years, from microfinance institutions before an agreement is signed.

Mission Response:

Since inception of the micro credit program in 1990, the USAID/Egypt Mission had
developed strict procedures to commit USAID-assisted microfinance institutions (MFIs)
to attain full sustainability at the earliest practical time. The Mission was keen to include
sustainability as a vital element of every agreement signed with the USAID-assisted
MFIs. As an example: the cooperative agreement signed with Assiut Business
Association (ASBA) on November 13, 2001, stated as follows: under article B.4.
“Deliverables and Results to be Achieved: The Foundation’s infrastructure for providing
services to micro-entrepreneurs, shall be increased from the current four branches to
seven branches, all of which will be operating as individual profit centers and it is
understood and agreed upon that the Recipient will continue to operate the program in a
financially self-sustainable manner” (Exhibit 1).

Another agreement, signed with the LEAD Foundation on August 5, 2003, under article
B.5. Planned Results, stated as follows: “At the end of the agreement, it is expected that
the Recipient would have accomplished the following results: The Recipient would have
established and operated a head office and up to five branches active in providing
sustainable credit, technical assistance, training, and other related services to the
targeted entrepreneurs subject this agreement” (Exhibit 2).

In addition, a letter from LEAD Foundation dated September 15, 2005, proposing to
amend the agreement with USAID to increase outreach and expand to new underserved



                                                                                           23
                                                                             APPENDIX II 



areas, stated the following: “We strongly believe in the importance of becoming self-
sustainable in the shortest possible time, and regard donor funds only as a transit means
to putting the foundation on its way to long term sustainability. We also believe in the
importance of investing in solid capacity building as the only means to achieving a long-
term sustainable activity” (Exhibit 3).

As requested under recommendation no. 1, the Mission CTO developed a checklist of
procedures to be considered before signing any new agreement under the microfinance
program. The checklist includes receiving written commitments from MFIs to attain full
financial sustainability within no more than seven years from the date of signing the
agreement (Exhibit 4).

Accordingly, the Mission received the above mentioned written commitment from Aga
Khan Agency for Microfinance (AKAM) (Exhibit 5), the only new agreement planned at
this time as part of its required documentation for the Global Development Alliance
(GDA). The letter of commitment will be required for potential future agreements with
MFIs.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 1 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No 2: We recommend that USAID/Egypt receive written commitments
to attain full financial sustainability from existing microfinance institutions with signed
agreements.

Mission Response:

The only ongoing agreement between USAID/Egypt and partner institutions is one with
LEAD Foundation. The agreement’s completion date is September 30, 2009. As
mentioned above, LEAD Foundation’s agreement confirmed its commitment to
sustainability. LEAD Foundation was recently rated by Planet Finance, a global
microfinance rating agency, and received the highest ever rating at this development
stage.

As requested under recommendation no. 2, the Mission CTO received on March 14,
2008, from LEAD Foundation’s management, a written commitment to attain full financial
sustainability within seven years from the date the Cooperative Agreement was signed
(Exhibit 6). The commitment letter stated the following: “The LEAD Foundation’s
mission is to provide its clients with sustainable access to quality microfinance services
and thus is fully committed to achieving full financial sustainability by September 2010,
seven years from the date of its Cooperative Agreement with USAID.”

In view of the above, the Mission believes that measures have been taken to
address Recommendation 2 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 3: We recommend that USAID/Egypt require all microfinance
institutions to develop business plans that incorporate performance targets.

Mission Response:


                                                                                         24
                                                                           APPENDIX II 



Since the inception of the micro credit program, USAID-assisted MFIs developed
business plans yet they were not up to the internationally recognized standards. The
business plans contained projections, milestones, and budgets but lacked performance
targets and indicators.

During the audit process, all USAID-assisted MFIs were requested to develop business
plans that incorporate performance targets and are now developing such plans. The
Mission CTO is monitoring the MFIs to ensure that the plans are in compliance with
internationally recognized standards. USAID received comprehensive business plans
from the following four MFIs: Alexandria Business Association (ABA) – (Exhibit 7),
Dakahleya Business Association for Community Development (DBACD) – (Exhibit 8),
the LEAD Foundation (Exhibit 9), and the Small Enterprise Development Association in
Port Said (SEDAP) – (Exhibit 10). Additionally, USAID received a draft business plan for
Assiut Business Association (ASBA) – (Exhibit 11). Sharkeya Business Association for
Community Development (SBACD) and North Sinai Business Association (NSBA) are
finalizing their plans and will submit their plans to USAID by May 31, 2008. As per the
attached MFIs Business Plan Tracker (Exhibit 12), Egyptian Small Enterprise
Development Association (ESED) will finalize their plan on June 30, 2008. It is worth
noting that the agreements with SBACD and ESED ended in February, 2000.

The current business plans include strategic objectives, target market and strategy,
products and services, including new product development, technical assistance,
financing projections, ratio analysis and indicators, benchmarking and yearly percentage
of operational and financial self-sufficiency. Moreover, the LEAD Foundation, DBACD,
SBACD, and SEDAP developed operational plans with detailed projections for each
department. ABA and ASBA are in the process of developing their operational plans.

The MFIs will report to the Mission CTO on a quarterly basis on actual performance
versus targets. The business plans will be reviewed by the MFIs on an annual basis and
will be included in their annual reports.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 3 and final action will be fully implemented by June 30,
2008; thus, we request closure of the recommendation upon final report issuance.

Recommendation No. 4: We recommend that USAID/Egypt approve an implementation
plan which identifies activities with clear baselines and targets to assess progress.

Mission Response:

Despite the fact that the Technical Assistance (TA) provider submitted three
implementation plans since January 2006, the effective date of the TA contract, through
April 2007, yet none of the implementation plans had clear baselines and targets to
assess progress. Consequently, the USAID/Egypt Mission did not approve the
implementation plan and provided directions to make the required changes.

The fourth implementation plan was first submitted to USAID/Egypt in December 2007
and revised in January 2008 based on feedback from the Mission. The USAID/Egypt
Mission approved the TA implementation plan for option year 2008 (Exhibit 13). The TA
provider, Chemonics International, adjusted its performance reporting to more clearly
demonstrate progress towards meeting targets in a format that is useful to the


                                                                                      25
                                                                             APPENDIX II 



USAID/Egypt Mission. The implementation plan was designed in accordance with the
Mission’s Strategic Objective 16 and its related Intermediate Results, and is in response
to the contract tasks and ADS 219 requirements. The implementation plan included a
matrix with performance indicators, baseline and targets, timeline of activities, specific
interventions, key milestones and deliverables within the 12-month option period.

Specific targets and indicators are broken down quarterly, and reported within the TA
quarterly report. The report is reviewed and evaluated by the Mission to assess
progress toward achieving the planned results. Adequate measures to review plans and
evaluate results are conducted quarterly, and targeted plans are reviewed accordingly.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 4 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 5: We recommend that USAID/Egypt approve performance
indicators for technical assistance that align with existing performance indicators for the
microfinance project.

Mission Response:

The USAID/Egypt Mission approved performance indicators for technical assistance that
are aligned with USAID/Egypt’s SO16 performance monitoring plan (PMP) as detailed in
the email, dated April 29, 2007, from the TA provider addressed to the Mission CTO and
the USAID/Egypt Program Office (Exhibit 14). The performance indicators are detailed
in Annex B of the approved TA work plan for option year 2008. Additional indicators
were developed by the TA provider, in response to ADS 219.5 and the TA contract
deliveries.

The performance indicators are broken down quarterly and are reported within the TA
quarterly reports. The indicators are tracked through review targets versus actual
performance.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 5 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 6: We recommend that USAID/Egypt require the implementer to
report on approved performance indicators in its quarterly progress reports.

Mission Response:

The USAID/Egypt Mission CTO required the TA provider to report on approved
performance indicators in its quarterly progress reports. The TA quarterly report for the
period of October to December 2007 reported on 15 performance indicators that
respond to the Mission requirements and ADS 219. The performance indicators are
broken down quarterly and are tracked by the Mission CTO through review progress
against targets. A summary table of indicators is also included with the quarterly report
(Exhibit 15). The indicators are reviewed by the Mission CTO to adjust deviations.




                                                                                        26
                                                                            APPENDIX II 



In view of the above, the Mission believes that measures have been taken to
address Recommendation 6 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 7: We recommend that USAID/Egypt develop a written action plan
for oversight by the cognizant technical officer including documented site visits and the
use of a performance monitoring checklist to assess progress against targets and the
completion of tasks stipulated in awards or annual plans.

Mission Response:

The Mission CTO acknowledges the importance of documenting site visits and has
taken specific measures to document all site visits. Since the beginning of fiscal year
2008, more than 80 site visit reports have been documented, including site visits to the
TA provider, MFIs, donors, and other stakeholders. Samples of the documented site
visits are attached (Exhibit 16).

Mission Order number 203-1 issued on February 8, 2004, entitled Performance
Management and Evaluation, specifies a system to be followed by all Mission CTO’s
regarding program monitoring, field visits, documentation, etc. (Exhibit 17).

As a result of recommendation 7, the Mission CTO has developed a performance
monitoring checklist which includes data to be tracked, frequency of collection, data
source, data quality assessments, more special studies or researches, and more (Exhibit
18). The Mission CTO prepared a plan for site visits that ensures complete coverage
with appropriate frequency (Exhibit 19).

In view of the above, the Mission believes that measures have been taken to
address Recommendation 7 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 8: We recommend that USAID/Egypt establish and document
specific procedures, including data entry and verification, to ensure the accuracy of
microfinance information reported to Congress.

Mission Response:

The USAID/Egypt confirms the accuracy of information, either reported to the Congress
or recorded by the Mission Financial Management Office. In regards to the two cases
reported by the audit team, the Mission response is as follows:

1- On January 3, 2006, the USAID/Egypt Mission signed a TA contract with Chemonics
International that included a base period through September 30, 2007 and two option
years. The budget allocated to the base period amounted to $5,352,131 which was
reported to the MRR in year 2006, as an obligation under TA services.

The contract was funded incrementally as follows: the first obligation of $3,538,150, the
second obligation of $1,027,666 and the third obligation of $786,315. The total amount
recorded by the USAID/Egypt Financial Management Office corresponds with the
amount reported to the MRR, at the end of the base period of the contract.



                                                                                        27
                                                                             APPENDIX II 




The Mission has also reported in 2006 to the MRR an amount of $9,811,000 as an
obligation covering an extension of the Cooperative Agreement (CA) with the LEAD
Foundation. The CA amendment extended the completion date of the program to
September 30, 2007. The USAID/Egypt Financial Management Office recorded the fully
obligated amount of $9,811,000 in fiscal year 2006.

As shown above, there is no inconsistency between the data reported to the MRR and
the data recorded by USAID/Egypt, since the total amounts under the two activities are
the same.

2- Concerning the data reported by the USAID-assisted MFIs, except for the estimated
amounts of poverty loans, there is no difference between the figures reported to the
Congress and the Mission records. As indicated by the audit team, the total number and
amount of loans reported by the three MFIs that had existing cooperative agreements
with USAID/Egypt are the same in the Mission records and those reported to the MRR.

Under the individual lending program, the MIS of the USAID-supported MFIs tracks the
number and amount of loans under poverty lending category issued during a certain
period of time (normally a month), which is reported to USAID in the monthly progress
reports. The active number of loans and outstanding portfolio under the poverty lending
category were not tracked by the MIS, thus were not reported to USAID. Therefore, the
MFIs estimated the percentages of loan amounts and numbers disbursed under poverty
lending category.

As indicated in the audit report, the only difference in poverty lending figures was
reported by the Alexandria Business Association (ABA). When requested to complete
the MRR reports, ABA management submitted their estimated figures, which they
believed to have been more realistic than those calculated by the TA provider. By
reviewing the figures, and comparing them with the average poverty lending portfolio
submitted by other MFIs, the TA provider accepted ABA’s figures which were reported to
MRR.

In order to minimize the use of estimated figures in future reporting, the Mission CTO
has taken proactive steps to ensure MRR 2007 (submitted in 2008) will be more
complete and accurate. The steps taken are as follows:

1- Strict instructions were given to the Technical Assistance MIS team to provide
assistance to the software developers of the MFIs to upgrade their systems to
incorporate many of the MRR areas that are currently estimated by the MFIs. The MIS
was upgraded in five MFIs (the LEAD Foundation, SBACD, SEDAP, DBACD, and
ESED) to calculate poverty lending figures as well as gender segregated figures. ABA’s
MIS is currently being developed and will be upgraded by the end of April, 2008 to
perform same two functions. This will be replicated by other institutions during 2008
(Exhibit 20).

2- The Mission CTO has requested that the TA provider develop a Letter of Agreement
(LOA) for each USAID-supported MFI (Exhibit 21). The LOA outlines the general
responsibilities of both the TA provider and the MFI that would maximize the outreach of
financial services, on a sustainable and best practices basis, in its markets. The LOA
also illustrates the types of activities that should be undertaken by the MFI and the type


                                                                                         28
                                                                               APPENDIX II


of assistance required by the TA provider to accomplish that goal. The LOA outlines the
agreement of the MFI to cooperate in completing and sharing various tasks including
MRR reports. To date, five MFIs signed their LOA.

3- The TA provider will assist the MFIs to prepare the MRR reports and to determine an
appropriate estimate for the poverty lending category. Accordingly, for MRR 2007, the
TA provider has sent individual emails to all USAID-supported MFIs who report to MRR
with clear instructions regarding the reporting procedures to be submitted to MRR by
May 2, 2008 (Exhibit 22).

4- The reports will be verified by the TA Chief of Party and submitted to the Mission CTO
for approval before reporting to MRR.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 8 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 9: We recommend that USAID/Egypt assess its technical
assistance for microfinance institutions to determine if the unique needs of each
microfinance institution are being met and revise the unique assistance for each
microfinance institution accordingly.

Mission Response:

The USAID/Egypt Mission conducted annual Contractor Performance Reviews which
assessed the overall TA performance. The USAID/Egypt Mission requested that the TA
provider conduct an assessment for the needs of the USAID-assisted MFIs, and based
on this assessment (Exhibit 23) has assigned specific tasks to aggressively respond to
the needs of the MFIs. This has been recorded as specific tasks under the TA work plan
for the option year. Moreover, the above mentioned LOA outlines the unique areas of TA
needs of each MFI.

At the end of year 2007, USAID/Egypt requested feedback from the supported MFIs on
the adequacy of the TA services, by conducting a survey on the TA performance (Exhibit
24). Responses to the survey revealed a remarkable improvement on the TA
performance and responsiveness to the MFIs’ needs. The Mission CTO will ensure
responsiveness to the MFIs’ observations.

The Mission CTO is also continuously monitoring the performance of the TA provider
and whether it responds to the needs of the MFIs, by providing the following:

1. 	 Review and evaluation of the implementation plan progress toward achieving
     planned results;
2. 	 Regular contact with the MFIs for the CTO to confirm that services are completed;
3. 	 Review of work plans and evaluation of results are conducted quarterly;
4. 	 A monthly activity tracker is being provided to the Mission CTO on each TA unit,
     describing each activity, milestones, person in charge and percentage of completion.
     This activity tracker is included with the TA quarterly report. A sample of the activity
     tracker for February 2008 is attached (Exhibit 25);




                                                                                          29
                                                                           APPENDIX II 



5. 	 Regular TA staff meetings to discuss progress with individual implementing units,
     and review of accomplishments of assigned tasks, in response to the MFIs needs;
     and
6. 	 Weekly meetings with the TA COP and senior staff are conducted to discuss pending
     issues and resolve program implementation problems.

In view of the above, the Mission believes that measures have been taken to
address Recommendation 9 and final action has been fully implemented; thus, we
request closure of the recommendation upon final report issuance.

Recommendation No. 10: We recommend that USAID/Egypt establish a branding
strategy for microfinance institutions as defined in ADS 320.6.

Mission Response:

The Mission CTO has regularly monitored compliance of contractors and assistance
recipients with USAID branding and marking requirements in accordance with the
relevant provisions in the contract, grant or cooperative agreement, as per ADS 320.

The Mission CTO circulated reminders and updates regarding the branding and marking
requirements, which includes sending updated regulations as they become available. On
November 4, 2007, the TA provider conducted branding capacity building sessions for all
MFIs. 22 representatives from all nine USAID-supported MFIs participated in the session
which highlighted the importance of branding and marking and discussed USAID policies
in that regard. An overview for this session is attached (Exhibit 26).

As a result of Recommendation 10, the Mission CTO requested that the TA provider
assist the LEAD Foundation, the only ongoing agreement at the present time, in
establishing a branding strategy which will be finalized by May 31, 2008.

Regarding the beneficiaries’ awareness of USAID support to MFIs, the Mission CTO has
closely monitored all MFIs to increase such awareness. However, due to political
concerns which may lead to adverse reaction, ABA chose not to inform some of their
beneficiaries in specific areas of USAID support. CTO has taken specific measures to
inform ABA and all other MFIs of the necessity of the awareness of the beneficiaries of
USAID support. This message was clearly emphasized by the CTO to the MFIs
management during the branding capacity building sessions that were conducted by the
TA provider.

The Mission CTO gave specific instructions to the TA provider to start training sessions
on branding directed specifically to loan coordinators who are in direct contact with the
beneficiaries. The loan coordinators will be trained to make beneficiaries aware of
USAID support to MFIs. It is worth noting that 76% of beneficiaries in the audit sample
were aware of USAID support to the three MFIs: LEAD Foundation (79% were aware of
the USAID support to the MFI), ASBA (94%) and ABA (45%).

In view of the above, the Mission believes that measures have been taken to
address Recommendation 10 and final action will be fully implemented by May 31,
2008; thus, we request closure of the recommendation upon final report issuance.




                                                                                      30
                                                                           APPENDIX II 



Finally, USAID/Egypt would like to extend its appreciation to RIG/Cairo Audit Team for
its assistance in strengthening measures to better manage the USAID microfinance
activities.

Attachments: a/s




                                                                                         31
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
